               UNITED STATES GOVERNMENT ACCOUNTABILITY OFFICE




     G                    Office of Inspector General

     May 2009
                          Semiannual
                          Report
                          October 1, 2008 —
                          March 31, 2009




GAO/OIG-09-5
                                                         Office of the Inspector General
                                         United States Government Accountability Office




Memorandum
Date:       May 8, 2009

To:         Acting Comptroller General – Gene L. Dodaro


From:       Inspector General – Frances Garcia

Subject:    Semiannual Report – October 1, 2008, through March 31, 2009

In accordance with Section 5 of the Government Accountability Office Act of 2008
(GAO Act), I am submitting my semiannual report for the first half of fiscal year 2009
for your comments and its transmission to the Congress.

During this period, the Office of the Inspector General (OIG) undertook a number of
actions to implement requirements in the GAO Act and selected provisions in the
Inspector General Reform Act of 2008. These actions included drafting a new GAO
order and policies and procedures, to emphasize the statutory role and
responsibilities of the OIG; establishing a page on GAO’s Web site to make the OIG’s
products readily available to the Congress and the public; hiring an attorney to
provide independent legal advice and counsel; and actively participating in the newly
established Council of Inspectors General on Integrity and Efficiency.

In addition, we issued one report with recommendations—our fiscal year 2008
evaluation of GAO’s voluntary compliance with the information security program and
practices required by the Federal Information Security Management Act of 2002. (See
attachment for a summary of this report and GAO actions to address its
recommendations.) Further, we monitored the agency’s efforts to assess and report
on internal controls consistent with guidance provided by the Office of Management
and Budget in its Circular No. A-123, Management’s Responsibility for Internal
Control, and initiated an audit risk assessment of GAO to aid in our development of
risk-based audit work plans. Our ongoing work included reviews of GAO
performance measures for three areas—human capital management, product
timeliness, and GAO testimonies.

Regarding our efforts to identify potential fraud, waste, or abuse within GAO, we
received 28 inquiries and allegations this reporting period through our hotline and
other sources. Twelve concerned matters related to other federal agencies, so they
were closed with a referral to GAO’s FraudNet—a mechanism that anyone may use to
report allegations of fraud, waste, abuse, or mismanagement of federal funds—or the
appropriate agency Office of Inspector General. Four were closed due to insufficient
factual information that would warrant further investigation; three others were
closed with a referral to the appropriate GAO office because they involved personnel
                                                          GAO/OIG-09-5 Semiannual Report
and security matters. Regarding the other nine cases, we completed action on four,
including one where an employee resigned as a result of the investigation. At the end
of the reporting period, five cases remained open.

Finally, in response to recommendations made in a prior report, Diversity at GAO:
Sustained Attention Needed to Build on Gains in SES and Managers (GAO-08-1098,
Sept. 10, 2008), GAO has incorporated diversity goals in Senior Executive Service
performance appraisals and established procedures to better ensure the
completeness and accuracy of its publicly reported discrimination data. In addition,
the agency has drafted an order to establish a requirement for an annual Workforce
Diversity Plan and to revise its discrimination complaint process to clarify
responsibilities and procedures when a complaint involves staff within GAO’s Office
of Opportunity and Inclusiveness. GAO expects the revised order to be published for
agencywide comment soon and made final shortly thereafter. In addition, the agency
has implemented and strengthened internal controls for tracking, reviewing, and
reporting complaint data.

Attachment

cc: Ms. Harper, Chief Administrative Officer
    Mr. Gordon, Acting General Counsel




Page 2                                                   GAO/OIG-09-5 Semiannual Report
Attachment

                   Summary of OIG Reports and GAO Actions


Reports Issued October 1, 2008 - March 31, 2009

Independent Evaluation of GAO’s Information Security Program and Practices—
Fiscal Year 2008, GAO/OIG-09-1 (Oct. 2, 2008).

Findings:

In this report, the OIG concludes that GAO has generally established an information
security program consistent with the requirements of the Federal Information
Security Management Act of 2002 (FISMA) and guidance issued by the Office of
Management and Budget and the National Institute of Standards and Technology, but
that GAO has not fully implemented several information security and privacy-related
requirements.

Recommendations and GAO Actions:

The report includes six recommendations to improve GAO’s information security
practices and its Privacy Program. GAO management concurred with each of the
recommendations and in response has conducted an assessment of the agency’s
systems and applications to update its systems inventory, established a process for
incorporating specific security language as appropriate in information technology
acquisitions, begun identifying additional content for its information security
awareness training, and continued negotiations with other agency service providers
to help GAO better monitor the remediation of security weaknesses identified for
providers’ systems. In addition, GAO has drafted privacy policy, developed a Privacy
Impact Assessment process and template, and plans to conduct assessments during
fiscal year 2009 for 20 major systems that contain personally identifiable information.
(998268)




(998279)



Page 3                                                    GAO/OIG-09-5 Semiannual Report
